No. 18-

inthe

Supreme Court of t|)e Intteb

In Re: Melba L. Ford
Petitioner,
On Petition for Writ of Mandamus/Prohibition
To the Ninth Circuit Court of Appeals
Judges FRIEDLAND, Clifton, et al.

PETITION FOR A WRIT OF
MANDAMUS/PROHIBITION
Melba L. Ford
In propria persona
905 Ross Way
Hanford, Calfornia 93230
559-772-9366

August 5,2019

QUESTIONS PRESENTED FOR REVIEW
I. When Circuits issue unsigned orders denying
appellate relief to unrepresented litigants, which
orders address no issue raised and provide no
explanation, do they violate litigants’ rights to
substantive due process and to meaningful access to
courts?
II. In regard to income tax causes, since district
judges are aware that any order they issue denying
relief to unrepresented litigants will be ratified on
appeal, does such setting violate the separation of
powers, litigants’ rights to substantive due process,
and is it such a departure from the accepted and
usual course of judicial proceedings as to call for an
exercise of the Supreme Court's supervisory power?
III. When credible, explicit allegations are presented
by unrepresented litigants that government-paid
attorneys are committing fraud in regard to the
litigation, should courts be required to appoint
counsel for the victims, fully paid by the
government?
IV. Are so-called “General Rules” of Circuits void,
which purport to authorize Circuit panel members to
eliminate access by unrepresented litigants to the en
banc circuit, when appeal is sought of panel
members’ acts or failures to act?

i

PARTIES TO THE PROCEEDING

Melba L. Ford,
Petitioner In Propria Persona

Respondents
The Honorable Circuit Judges
Michelle Taryn Friedland
Richard R. Clifton, and
Any other 9th Circuit judge involved in
Appeal 18-17217

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW
PARTIES TO THE PROCEEDING
TABLE OF AUTHORITIES

1
11
IV

JURISDICTION

1

STATEMENT OF THE CASE

1

PROLOGUE

2

DEEP BACKGROUND

4

UNDERLYING IRS PROGRAM REVEALED...... 7
CURRENT PENDING LITIGATION

12

ISSUES & ARGUMENTS

13

FOUR REASONS FOR GRANTING PETITION 21
A. Will Aid Courts’ Appellate Jurisdiction

22

B. Exceptional Circumstances

24

C. No other adequate means to attain the Relief
desired
25
D. Petitioner’s right to mandamus relief is clear
and indisputable.
26
RELIEF REQUESTED

27

in

APPENDIX
APPENDIX 1 — U.S. District Court for the
Eastern District of California
17-00187, Doc. 70
Judge Dale A. Drozd’s
Order Granting Summary Judgment
September 28, 2018
a
APPENDIX 2 — U.S. District Court for the
Eastern District of California
17-00187, Doc. 87
Judge Dale A. Drozd’s
Order Denying Rule 59/60 Motion
May 30, 2019................................... ff
APPENDIX 3 — U.S. Court of Appeals for the
Ninth Circuit
18-17217, Doc. 11345495
Panel Friedland’s Order Denying
Appellant’s Rule 8 Motion to Stay
Judgment
June 26, 2019................................... oo
TABLE OF AUTHORITIES
CASES

PAGE

Anderson v. Liberty Lobby, Inc.,
477 U.S. 232 .......................
Betts v. Brady,
316 U.S. 455

18

Bounds v. Smith.
430 U.S. 817. 97 S.Ct. 1491,52 L.Ed.2d 72

15

iv

Chambers v. Baltimore & Ohio R. Co.,
207 U.S. 142..................................

14

Ellis v. Commissioner ofInternal Revenue, et al,
14-471..........................................................

4

Enochs i’. Williams Packing and Navigation Co.,
370 U.S. 1................................... '................”

5

Fordv. USA,
18-17217

3, 6, 12. 14,21

Gideon v. Wainright,
372 U.S. 375 !....

17

Johnson v. Avery.
393 U.S. 483. 89 S.Ct. 747, 21 L,Ed.2d 718

15

Kerr v. United States District Court,
426 U.S. 394 .............................

.22

USA v. Ford,
17-00187.

2,3, 12

Wolff v. McDonnell,
418 U.S. 539, 94 S.Ct. 2963, 41 L,Ed.2d 935

15

CONSTITUTION
Fifth Amendment

i, 16, 24

First Amendment

16, 24

Fourteenth Amendment

17

Sixth Amendment

17
V

STATUTES
26 USC §6020(b)

2,9

RULES
FRE Rule 201

2, 6, 8, 14

Gen. Rule 6.11

4, 7, 20, 27

Supreme Court Rule 20.1

.21

OTHER AUTHORITIES
IRM Section 5.1.11.6.7 IRS 6020(b) Authority

7

IRM Section 5.18.1.1.2 (12-13-2017) Authority

8

IRM Section 5.18.1.3.1 (04-06-2016) ASFR System
Overview...................................................................

8

IRM Section 5.18.1.6

9

IRM Section 5.18.1.6.1 ASFR Dummy TC 150

9

IRS Privacy Impact Assessment concerning 6020(b)

8

D.C.D.C. 14-cv-471

4

D.C.D.C. 15-cv-2039

4

D.C.D.C. 16-cv-420

4

D.C.D.C. 16-cv-1053

4

D.C.D.C. 16-cv-1458

4

vi

D.C.D.C. 16-cv-1768

.4

D.C.D.C. 16-cv-2089

4

D.C.D.C. 16-cv-2313

4

E.D.C.A. 17-cv-0034

4

D.C.D.C. 17-CV-0022

4

D.C.CoA. 15-5035.

6

D.C.CoA. 16-5233

6

D.C.CoA. 16-5308.

6

D.C.CoA. 17-5054.

6

D.C.CoA. 17-5055.

6

D.C.CoA. 17-5056.

6

D.C.CoA. 17-5056.

6

D.C.CoA. 17-5057.

6

D.C.CoA. 17-5058.

6

vii

JURISDICTION
The Supreme Court has jurisdiction under 28
U.S.C.
§1651(a)
to
issue
Writs
of
Mandamus/Prohibition to protect its appellate
jurisdiction over the largest government record
falsification program in the history of the United
States, as fully known, and supported, by every
judicial branch officer involved in Class cases.
STATEMENT OF THE CASE
Based SOLELY on Internal Revenue Service
(IRS) procedural manuals, IRS published statements,
IRS responses to FOIA requests and IRS mailings,
Americans have discovered that IRS uses computer
fraud to falsify its controlling digital records and paper
certifications based thereon, in order to initiate
property seizures from, and criminal prosecutions of,
so-called “non-filers”, “tax evaders”, etc.
Shockingly, as shown below, every judicial
branch officer involved in Class cases filed to date by
unrepresented litigants to end the program has
refused to address the IRS-provided evidence, thus
fully supporting and prolonging the IRS/DoJ program.
In income tax cases, there is no separation of
powers. Both branches act as one. And now, with all
due respect, Judges of the 9th Circuit are defrauding
me, an eighty-year-old woman, who loves her Country,
her God and justice. This Court should be outraged,
and it should intervene.
l

PROLOGUE
IRS and DoJ initiated a forfeiture case against
me, seeking to seize my home, while presenting to the
Hon. Dist. Judge Dale A. Drozd (in USA v. Ford, 17cv-00187-DAD, E.D. Cal., Fresno) a repeatedly
falsified Form 4340 Certificate, since no signed
summary record of assessment exists.
In response, I asked Mr. Drozd to judicially
notice, per FRE 201, four segments of IRS’ Internal
Revenue Manual. (“IRM”, Quoted, Pg. 8, infra,),
provided by IRS during discovery. Those segments
reveal how IRS used its Sun Microsystems computer
to not only calculate the supposed deficiency I owe, but
to also falsify the underlying IRS digital record
concerning me and 2003, making it appear IRS both
received a return and prepared a substitute for return
on claimed dates, when no such thing exists or
happened.
Then, as the IRM segments reveal, the
computer automatically created two unsigned,
“Letters” (a “30 day” and “90 day”) with dates that
don’t match the 4340 Certificate, and an unsigned
“6020(b) Certification”, all over the names of humans.
Those computer actions ALL occurred on July 11, 2007,
and the records created that date are underpinning
the seizure action of my home.

2

)

But, Judge Drozd point-blank refused to notice
the IRM segments I presented, finding I had “failed to
provide any specific facts or evidence”1 to support my
claim the Form 4340 Certificate had been falsified,
even though the IRM segments reveal the precise
sequence its Sun MicroSystems computer took to
repeatedly falsify federal records concerning me and
2003, and which segments directly contradict his core
fact holding that “a duly authorized delegate of the
Secretary” “prepared an assessment” concerning me
and 2003 on “Feb. 26*, 2007” (See APPENDIX 2,
Drozd holding, 17-00187, Doc. 70, Order Granting
Summary Judgment. Pg. 5, line 9, et seq.).
Thus, his summary judgment is based on his
core findings that 1.) IRS’ ASFR computer program is
supposedly a duly authorized delegate of the Secretary,
which 2.) supposedly prepared a signed summary
record of assessment on February 26, 2007, though
both fact holdings are controverted.
I appealed, filing on December 3, 2018 in the
Circuit my extensively documented Emergency Rule 8
Motion, with supporting evidence, consisting of 21
pages plus 9 exhibits. [Please see 9th Circuit cause 1817217, Doc. 11108326.] Therein, I sought stay of Mr.
Drozd’s judgment during the course of any appeals.
But, the assigned 9th Circuit Panel, Judges Friedland
and Clifton, hereinafter “Panel Friedland”, refused to
1 See APPENDIX 1, Drozd Order denying Rule 59/60 Relief, Doc.
87 pg. 4.
3

address my Motion. (I later learned, as shown below,
the Panel surreptitiously blocked my access to the en
banc Circuit, pursuant to “General Rule 6.11” when I
sought to appeal the Panel’s refusal/failure to rule on
my Emergency Rule 8 Motion.)
On June 26, 2019, the Panel finally, derisively
denied my detailed Emergency Motion as follows:
“Appellant’s motion to stay execution of the
district court’s judgment pending appeal is
denied.” [See Order, APPENDIX 3]
Not a word of explanation was provided.
DEEP BACKGROUND
For over FOUR YEARS, judicial branch officers
have either falsified the record of Class cases
(dismissing TEN,2 after attributing to Class plaintiffs
complaining of the IRS/DoJ record fraud, forms of
relief they never sought, over the plaintiffs’ vociferous

2 The TEN cases include:
- D.C.D.C. 14-CV-0471, Ellis v. Commissioner of Internal
Revenue, et al
- D.C.D.C. 15-CV-2039, DePolo v. Ciraolo-Klepper, et al,
- D.C.D.C. 16-CV-0420, Dwaileebe v. Martineau, et al,
- D.C.D.C. 16-CV-1053, Crumpacker v. Ciraolo-Klepper, et al,
- D.C.D.C. 16-CV-1458, McGarvin v. McMonagle, et al,
- D.C.D.C. 16-CV-1768, Podgorny v. Ciraolo-Klepper, et al,
- D.C.D.C. 16-CV-2089, DeOrio v. Ciraolo-Klepper, et al,
- D.C.D.C. 16-CV-2313, Ellis, et al, v. Jackson, et al, and
- E.D.C.A. 17-CV-0034, Ford v. Ciraolo-Klepper, et al,
- D.C.D.C. 17-CV-0022, Stanley, et al, v. Lynch, et al.
4

objection),3 sanctioned original Co-Plaintiffs Ellis and
McNeil based on the version of Class cases fabricated
by the Hon. Judge Amy Berman Jackson to justify
dismissals,4 and held that the Anti-Injunction Act
stripped courts of power to hear cases (despite the fact
no underlying amount of tax was in controversy).5

3 See Ellis v. Commissioner, 14-471, Memorandum Opinion [28],
dated September 16, 2014 and see Christopher Cooper’s
December 31, 2016 Opinion and Order. [Doc. 5] in D.C.D.C. 16cv-2089, DeOrio v. Ciraolo-Klepper, et al, wherein he
simultaneously dismissed six Class cases based on his
reiteration of the Hon. Judge Jackson’s fabrication in Ellis that
victims/plaintiffs supposedly sought to enjoin IRS from
preparing substitute income tax returns, when, contradictingly,
and in fact, the victims discovered and complained IRS never
prepares such returns, yet systematically falsifies digital and
paper records to create the appearance it does.
4 After Judges Cooper and Jackson colluded on September 27,
2016 to place on his docket six then-unadjudicated Class cases,
in preparation for him to dismiss on the basis of Ms. Jackson’s
fraud (that Plaintiffs supposedly sought to enjoin IRS from
preparing substitute income tax returns), Mr. Cooper dismissed
the six cases on December 31, 2016. Then, on April 19, 2017, Mr.
Cooper suddenly held that the version of Plaintiffs’ cases which
Jackson had fabricated, and he reiterated was sufficiently
meritless, that he sanctioned Plaintiffs Ellis and McNeil(\) to
prevent them from helping any other victims file suits to stop
the IRS fraud. As always, on appeal, the Circuit issued its
standard unsigned denial of appellate relief, addressing no
issue raised. [See Circuit Cause 17-5141, Order. Doc. 1682950,
dated July 7, 2017.]
5 See, for example, in D.C.D.C. 16-CV-2313, a Memorandum
Opinion, dated June 18, 2018. Beginning his “Analysis”
concerning the ALA, [Doc. 26, Pg. 5, 2nd full U] The Hon. Judge
Kelly first correctly quotes, in part, Enochs v. Williams Packing
and Navigation Co., 370 U.S. 1, (1962): “The manifest purpose
of §7421(a) is to permit the United States to assess and
collect taxes alleged to be due without judicial intervention,
and to require that the legal right to the disputed sums be
5

During the course of eight fully paid Class
appeals concerning the underlying IRS record
falsification program, the D.C. Circuit Court denied all
eight appeals6 by issuing unsigned “orders” that
addressed no issue raised on appeal, failed to identify
the standard of review used, etc., simultaneously
destroying the appellate jurisdiction of the Supreme
Court over the program. The author(s) of the opaque
rulings “left nothing to appeal.”
We now see that same pattern being replicated
in the 9th Circuit. So, with hindsight, we can precisely
forecast the outcome of my appeal in 18-17217. With
all due respect to the Panel, it is likely my appeal will
be dismissed via unsigned order, without addressing
any issue raised on appeal, or, at best, a holding that I
failed some technical evidentiary burden, (while the
Panel refuses to provide standby counsel necessary to
battle the intense government-paid attorney fraud).

determined in a suit for refund.” But then, Mr. Kelly, as have
all other judges before him, ignored the fact that neither the
Plaintiffs nor the Government allege that any “disputed sums”
existed or were in controversy between the parties.
6 Per FRE 201, the Court is requested to notice the dismissal
orders in
- D.C. COA 15-5035, Ellis v. Commissioner,
- D.C. COA 16-5233, McNeil v. Commissioner,
- D.C. COA 16-5308, DePolo v. Ciraolo-Klepper,
- D.C. COA 17-5054, Crumpacker v. Ciraolo-Klepper,
- D.C. COA 17-5055, McGarvin v. Ryan O. McMonagle,
- D.C. COA 17-5056, Podgorny v. Ciraolo-Klepper,
- D.C. COA 17-5057, DeOrio v. Ciraolo-Klepper and
- D.C. COA 17-5058, Dwaileebe v. Martineau.
6

Then, afterward, my effort to secure en banc
relief will be quietly obstructed by the Panel.
Aside from the issue of the Panel’s questionable
use of General Rule 6.11 to block my access to the en
banc Circuit, (See Issue 4, Pg. 18, infra), I contend the
bald, incomprehensible order issued on June 26, 2019
violated my rights to substantive due process and to
meaningful access to courts. And, it will be replicated
in the upcoming dismissal of my appeal, thus
destroying this Court’s appellate jurisdiction once
again over the IRS/DoJ/judicial branch record
falsification program ruining my life.
I further contend the Justices of this Court have
both “supervisory jurisdiction” and a moral duty to
come to my aid, thereby avoiding personal
involvement in the scheme while reestablishing the
independence of the judiciary, the separation of
powers and the Rule of Law.
UNDERLYING IRS
PROGRAM EXPLAINED
The core of the executive branch program,
which systematically falsifies federal records to
enforce the income tax, is computer fraud used to
circumvent the Commissioner’s claimed lack of
authority to prepare substitute income tax returns.7
7 The authority to perforin substitutes for return is discussed by
IRS in IRM 5.1.11.6.7 and other places, unequivocally stating
that said authority is limited to “employment, excise and
7

The program is presented briefly here for the
benefit of the Court, in the next four (4) pages. (Since
this is not an evidentiary setting, the evidence I have
is available on request.)
During discovery, the DoJ provided me four
Internal Revenue Manual segments that explain how
the IRS used a certain computer platform upon which
it ran the “Automated Substitute For Return” program
(ASFR), before it was suspended. (The ASFR program
was suspended in September 2017, but its effect on me
is still being felt.)
Just as I requested, pursuant to FRE 201, that
Mr. Drozd judicially notice the following four IRM
segments, I now request this Court judicially notice
the same four segments, easily available on IRS’
website, a source the accuracy of which cannot be
reasonably be questioned:
1. IRM Section 5.18.1.3.1 (04-06-2016) ASFR
System Overview “ASFR is a stand-alone
system residing on a SUN Microsystems
platform at the Enterprise Computing Center
(ECC).”
2.
IRM Section 5.18.1.1.2 (12-13-2017)
Authority “The ASFR program (i.e., the SUN
Microsystems computer) assesses tax by
authority of Internal Revenue Code (IRC)
partnership taxes”. This is precisely confirmed in the Privacy
Impact Assessment (PIA) IRS issues concerning 6020(b). [Link
here: http://www.irs.gov/pub/irs-oia/auto 6020b-pia.pdf ]
8

6020(b). IRC 6020(b) provides the authority to
assess tax based on reported income
information when a person fails to submit a
required return.”
3. IRM Section 5.18.1.6: “When ASFR
processing is initiated on a module, the ASFR
system (which is the SUN Microsystems
computer) will calculate the proposed tax
assessment, and generate both the 30-day and
90-day letters.”
4. IRM Section 5.18.1.6.1. ‘ASFR Dummy
TC 150’: “When an ASFR 30-Day Letter
(‘2566’) is generated, ASFR (i.e., the SUN
Microsystems computer) requests a TC 971
with Action Code 141 be posted to the
Individual
Master File
module
under
consideration. The TC 971 triggers a dummy
return to then post. The dummy return posts as
a TC 150 for ‘$0.00’ to the module. An ASFR
dummy return can be identified by the literal
‘SFR’ to the right of the TC 150 on TXMODA.
Additionally, the Document Locator Number
(DLN) will (contain) a Julian date of 887. The
Julian date for an SFR computed by the IRS
Examinations Division is ‘888.”
Since one of the documents IRS provided
during discovery concerning me and 2003, the
“TXMODA”, shows a literal ‘SFR’ to the right of the
“TC 150”, and a Julian date of 887 in the Document
Locator Code (“DLN”), IRS used the ASFR program
9

running on the SUN Microsystems computer to (a.)
calculate the alleged deficiency I supposedly owed for
2003, to (b.) generate unsigned, wrongly-dated
Letters (“30-day Letter” and a “90-day Letter”) over
the names of humans, and to (c.) falsify the
underlying Individual Master File record for 2003 to
reflect that 1.) a “dummy return” was supposedly
received by IRS on the “Return Received Date” of
July 11, 2006 and that 2.) a “Substitute tax return
(was) prepared by IRS” on “08-14-2006”.
Incredibly, IRS defines the phrase “Substitute
for Return” as an action, not a thing. That is, the
phrase does NOT refer to a document prepared on a
given date, but to the procedure of establishing an
account concerning a “non-filer” on IRS computers.
IRS’ definition of the phrase “Substitute for Return”
is:
“A procedure by which Examination (Division) is
able to establish an account by posting a computergenerated TC150, when the taxpayer refuses or is
unable to file”8
This definition means two things.
First, there is no such thing as a substitute
income tax return. IRS does not “receive a return”
nor does IRS “prepare a substitute income tax
return” concerning any so-called “non-filer” on any
8 Link: https://www.irs.gov/irm/part4-/irm 04-004-001#
Scroll to AIMS Ref. Guide, then scroll further to the definition
of “Substitute for Return”.
10

date shown in IRS’ falsified underlying digital
records, (nor on the dates shown in IRS
“certifications”, derived from the falsified digital
records).
The date shown in IRS’ digital and paper
records beside the entry “Return Received Date” is
when the Sun Microsystems computer generated an
unsigned “dummy return”, a.k.a “30-day Letter” over
the name of a human. And, the date shown in IRS
records beside the phrase “Substitute for Return
prepared by IRS”, is merely referencing the computer
procedure used to create the 30-Day Letter.
To clarify, on July 11, 2006, the SMS computer
sequentially calculated the deficiency I supposedly
owe for 2003, then simultaneously generated both an
unsigned 30-day and 90-day letter over the names of
humans, with dates that don’t match any shown in
IRS digital records or Certifications.
No document was received by IRS on the
“Return Received Date”, nor was a “Substitute for
return” prepared by IRS on the date shown in IRS
summary documentation: “150 Substitute tax return
prepared by IRS 08-14-2006”. That does not exist.
Those dates reflect only computer entries by
the SUN Microsystems platform occurring on a
single date, weeks before the dates shown on the
computer-generated, unsigned Letters over the
names of humans.

11

Second, despite the IRM evidence proving it
was IRS’ SUN Microsystems (SMS) computer which
simultaneously authored all documents being used to
attack me, all government-employed attornej^s are
claiming that said computer is “a duly authorized
delegate of the Secretary”. And, despite the evidence
showing that IRS merely entered on February 26,
2007 the alleged deficiency amount assessed by the
SMS computer on June 11, 2006, Judge Drozd held a
“duly authorized delegate of the Secretary” “prepared
an assessment” concerning me and 2003 on “Feb.
26th, 2007” (See Drozd holding, APPENDIX 1, 1700187, Doc. 70, Order Granting Summary Judgment.
Pg. 5, line 9, et seq).
No such thing exists, but all the governmentemployed public servants want me to prove it does
not exist, using complicated evidentiary rules
attorneys enforce on each other. No unlearned 80year old will be able to prove the non-existence of a
fact, unless counsel is provided.
CURRENT PENDING LITIGATION
I filed my Brief on Appeal in 18-17217 on July
26, 2019. However, and with all due respect to their
offices, if the Panel Friedland does not deviate from its
course, the Circuit clerk will soon issue an unsigned
“order” addressing no issue raised on appeal, denying
appellate relief, and if citing any reason at all, will
claim I failed some technical legal burden, (e.g.
supposed failure to correctly present evidence, to build
12

evidentiary foundation, to preserve issues on appeal,
etc.).
Thus, the Panel will also destroy the appellate
jurisdiction of this Court over the underlying executive
branch record falsification program, as fully supported
by Dale A. Drozd and all involved judicial officers to
date.
So, by filing this petition for mandamus and
prohibition, I forthrightly seek to secure substantive
due process and meaningful access to appellate relief,
by compelling Circuit Panels to cease issuing unsigned
orders addressing no issue raised, to actually address
each issue raised on appeal, and to transparently
apply relevant law to each specific fact issue raised.
ISSUES & ARGUMENTS
Questions:
I. When Circuits issue unsigned orders denying
appellate relief to unrepresented litigants,
which orders address no issue raised and
provide no explanation, do they violate
litigants’ rights to substantive due process and
to meaningful access to courts?
As mentioned above, (on Pg. 4, first sentence),
the Panel Friedland of the 9th Circuit issued on June
26, 2019, an Order [APPENDIX 3] denying my
detailed Emergency Rule 8 Motion without a scintilla
of explanation.

13

I contend the denial was purposefully
unexplained to prevent me from understanding the
legal basis for it, and to obstruct the appellate
jurisdiction of this Court. By so doing, the Panel
Friedland violated my right to substantive due
process and to ‘meaningful access to courts”.
Ominously, this is the same conduct that
occurred when eight Class appeals were dismissed in
the U.S. Circuit Court of Appeals for the D.C. Circuit.
[Please see cases listed in Footnote 1., and the Court
is requested, per FRE 201, to judicially notice the
reason-free dismissal orders of those EIGHT cases.]
The pattern is clear. We can reasonably foresee
that the ultimate dismissal of my appeal in 9th
Circuit cause 18-17217 will consist of an unsigned
‘“order” denying relief without addressing any issue I
raised, and without provision of any government-paid
counsel to help me fight the countless governmentpaid attorneys supporting the IRS/DoJ fraud outlined
above. Here is what is wrong with that picture.
My “right to sue and defend in the courts is the
alternative to force. In an organized society, it is the
right conservative of all other rights, and lies at the
foundation of orderly government.” Chambers v.
Baltimore & Ohio R. Co., 207 U.S. 142 (1907).
Obviously, my right to sue includes
“meaningful access to courts”, not merely physical

14

access.9 Although access to the Supreme Court is
purely discretionary, I have a statutory RIGHT to
access appellate courts for meaningful adjudication,
especially in the extraordinary circumstances facing
me.
My home is about to be stolen on the basis of
falsified federal digital and paper records, used to
conceal the facts that 1.) no summary record of
assessment was signed and prepared on February 26,
2007 by an authorized human exercising duly
delegated authority from the Commissioner,10 and 2.)
all involved attorneys, executive branch and judicial,
contend a computer has duly delegated authority to
prepare and issue substitute income tax returns and
summary records of assessment, (even though no
such thing exists).
Thus, when servants deny appellate relief in
cases such as mine that are clearly NOT frivolous,
but without explanation, (in the same manner as this
Court denies petitions, i.e., explanation-free), my

9 The constitutional right of adequate, effective, meaningful
access to courts has been firmly established in Supreme Court
case law. See. e.g., Bounds v. Smith. 430 U.S. 817. 97 S.Ct.
1491, 52 L.Ed.2d 72 (1977); Wolff v. McDonnell, 418 U.S. 539.
94 S.Ct. 2963, 41 L.Ed.2d 935 (1974); Johnson v. Avery. 393
U.S. 483, 89 S.Ct, 747, 21 L.Ed.2d 718 (1969).
10 That claimed “fact” is obviously “materia]” since quoted by
every single involved attorney, and resolution of that
controversy will change the outcome of my case, thus meeting
the criteria established by this Court in Anderson v. Liberty
Lobby, Inc. 477 U.S. 232.
15

right to access courts is trivialized, reduced to
platitude.
Accordingly, I request that this Court protect
its appellate jurisdiction over the executive branch
program, and my rights, by terminating the practice
in cases filed by unrepresented litigants concerning
the income tax and attorney fraud, whereby Circuit
clerks issue incomprehensible orders on Circuit
letterhead addressing no issue raised on appeal, nor
providing any application of relevant law to the
specific fact allegations raised in the complaint.
II. In regard to income tax causes, since
district judges are aware that any order they
issue denying relief to unrepresented litigants
will be ratified on appeal, does such setting
violate the separation of powers, the litigants’
rights to substantive due process, and is it such
a departure from the accepted and usual
course of judicial proceedings as to call for an
exercise of the Supreme Court's supervisory
power?
It is common knowledge that, in cases raised
by unrepresented litigants concerning the income
tax, Circuit panels will ratify any and every denial of
relief by trial courts, no matter how manifestly
unjust.
Restated, the record of litigation in this nation
shows that not one case filed by unrepresented
litigants setting forth the details of IRS’
institutionalized, invariable record falsification
16

program, (which records are used with the knowledge
of all government-paid attorneys), has ever been
adjudicated on the merits. [See U.S. litigation
history, Footnotes 2 and 6]
Every district judge KNOWS that, in income
tax cases, they deny relief to victims, confident the
Circuit “has their back” and will protect their
appellate records to a 100% certainty, upholding any
district court determination, no matter how
fraudulent, or manifestly unjust.
I contend that the very climate of our courts, in
the context of income tax matters, i.e., the setting
itself, is a violation of the separation of powers and
my right to due process, calling for exercise of the
Supreme Court’s supervisory power to re-establish
the judicial integrity rationale and the independence
of the judiciary to end outrageous executive branch
overreaching in matters involving income tax.
III. When credible, explicit allegations are
presented by unrepresented litigants that
government-paid attorneys are committing
fraud in regard to the litigation, should courts
be required to appoint counsel for the victims,
fully paid by the government?
In Gideon u. Wainright, 372 U.S. 375, (1963)
the Supreme Court held that the Sixth Amendment’s
guarantee of counsel is a fundamental right essential
to a fair criminal trial and, as such, applies to the

17

states through the Due Process Clause of the
Fourteenth Amendment.
By overturning Betts v. Brady, 316 U.S. 455
(1942), in which the Court had previously held that
the refusal to appoint counsel for an indigent
defendant charged with a felony in state court did not
necessarily violate the Due Process Clause of the
Fourteenth Amendment, Justice Black stated that
“reason and reflection require us to recognize that in
our adversary system of criminal justice, any person
haled into court, who is too poor to hire a lawyer,
cannot be assured a fair trial unless counsel is
provided for him.” He further wrote that the “noble
ideal” of “fair trials before impartial tribunals in
which every defendant stands equal before the law . .
. cannot be realized if the poor man charged with
crime has to face his accusers without a lawyer to
assist him.”
I contend the same rationale applies with
equal force to civil actions initiated by governmentpaid attorneys to justify seizure of private property. I
fully agree with Justice Black, that a fair trial before
an impartial tribunal, where every civil defendant
stands equal before the law with government
attorneys... can NEVER be realized if the poor
woman charged with failing a claimed duty she
disputes, has to face her lawyer-accusers without a
lawyer to assist her, especially when the outcome is
the loss of her home, and even more so when her
defense rests on presenting complex evidence proving
18

IRS and DoJ are running the most exquisite record
falsification program in the history of the Nation.
Restated, a moral duty exists for courts to
provide litigants representation, which applies in
cases such as this, where explicit, non-conclusory,
credible allegations are made that government-paid
attorneys are using a computerized, layered record
falsification program to justify the theft of property.
Every man and woman of goodwill would agree
that the appointment of EFFECTIVE governmentpaid counsel to battle the government-paid lawyers
seeking to steal property, would “level the playing
field” and, ipso facto, terminate the egregious fraud
now inundating our government courts in income tax
matters.
This is so important, I reiterate: When
unrepresented litigants explicitly allege that
government-paid attorneys are involved in fraud,
such as by using falsified IRS records, presenting
false declarations, making false claims in their
filings, etc., I contend that “fundamental fairness”,
a.k.a. substantive and procedural due process,
REQUIRES
courts
to
minimally
provide
unrepresented litigants “standby” counsel, of the
finest available at the normal rate typically charged
in private practice, at the expense of the government.
Since “The United States wins its point
whenever justice is done its citizens in the courts”, no
expense is too great to be paid when credible
19

allegations are made that government-paid attorneys
appear to be subverting the Rule of Law.
IV. Are so-called “General Rules” of Circuits
void, which purport to authorize Circuit panel
members to eliminate access by unrepresented
litigants to the en banc circuit, when appeal is
sought of panel members’ acts or failures to
act?
The Panel Friedland denied my petition to the
en banc Circuit, (by which I sought to compel the
Panel to adjudicate my Emergency Rule 8 Motion), in
the following language:
“Appellant’s motion for initial en banc
determination of her motion to stay the district
court’s judgment pending appeal (Docket Entry
No. 10) is denied on behalf of the court. Cf. 9th
Cir. Gen. Ord. 6.11.” (See APPENDIX 3, Pg. 1,
last sentence.)
That means, when I attempted to appeal to the
en banc circuit the refusal of Judges Friedland and
Clifton to rule for three (3) months on my
EMERGENCY Rule 8 motion, she concedes she
defeated my attempt to secure relief by
surreptitiously ruling on behalf of her peers.
I contend this is an open admission she
obstructed my access to the en banc Court to
complain of her failure/refusal to adjudicate my
Emergency Motion.

20

Never in the history of law has any man,
woman or judge been authorized to sit in judgment of
her actions. The following ruling states the principle
clearly, (although not binding in a federal court):
“[Ujnder our system of jurisprudence no person, not
even a judge, should sit in judgment in his own case.”
State v. Lewis, 80 So. 2d 685.
There is no need to multiply authority on the
subject. If Judge Friedland shielded her actions from
review by her peers on the en banc 9th Circuit, she
violated a most basic, fundamental precept of law.
And, if so, she has no idea what the Rule of Law is,
let alone how her act violates my right to due process.
And, since she concedes she committed that
act, it is obvious she may do so once again, after
either improperly dismissing my appeal 18-17217 or
committing some other improper act.
I move this Court ends the practice of Circuit
judges obstructing access of unrepresented litigants
to en banc Circuits to complain of the acts or failures
to act of a panel.11
FOUR REASONS FOR GRANTING PETITION
Supreme Court Rule 20.1 states the three
showings necessary to grant a petition for writ of
11 As a final note on the subject, the Panel Friedland’s action
proves that en banc relief for unrepresented litigants is a
figment of imagination, a shibboleth, mere pious attorney
platitude.

21

mandamus: 1.) It must be in aid of the Court’s
appellate jurisdiction, 2.) exceptional circumstances
must be present, and 3.) adequate relief is not
obtainable in any other form or from any other court.
Additionally, Petitioner must demonstrate the right
to issuance of the writ is “clear and indisputable,” per
Kerr v. United States District Court, 426 U.S. 394,
(1976). Petitioner addresses each requirement in
seriatim.
A. Will Aid Courts’ Appellate Jurisdiction
As shown above, the Supreme Court’s
appellate jurisdiction to review the layered IRS
record falsification program has been obstructed for
many years by densely layered, judicial branch fraud
in the courts below.
Now, when evidence of the IRS fraud was
spread before the Court of Mr. Dale A. Drozd, he held
that a computer is a duly authorized delegate of the
Secretary which prepared and signed a summary
record of assessment on February 26, 2007, and that
IRS procedural manuals are not evidence he can
review to resolve the procedural fact issues in
controversy.
The assigned Circuit Panel Friedland has
already issued an order denying emergency relief
without addressing any issue raised in the motion,
precisely as has the D.C. Circuit in dismissing
EIGHT Class appeals. It is thus reasonable to foresee
the Panel Friedland will dismiss my appeal without
22

addressing any issue raised, while also destroying
(once again) the appellate jurisdiction of this Court
over issues of nationwide significance
This Court should exercise its supervisory
authority to ensure a just outcome of my appeal, thus
vindicating its own appellate jurisdiction over the
underlying executive branch record falsification
program.
Every district judge knows that Circuits will
support their decisions against unrepresented
litigants raising issues concerning the income tax, no
matter how outlandish. In the litigation history of
this Nation, no case filed by unrepresented litigants
involving the income tax record falsification program
has even been adjudicated on its actual merits, at the
district level. That perverse, unjust setting itself
justifies an exercise of the supervisory power of this
Court to ensure it ends.
Moreover, the Circuit should appoint standby
counsel for me, to ensure the executive branch
program arrives in this Court, fully litigated below,
since the fraud is supported by every involved
government-paid attorney, thus ensuring my
substantive allegations affecting every American are
not dismissed on mere procedural pretexts.
Finally, the Panel Friedland has already
obstructed access to the en banc Circuit, thus
relegating the appeal process to mere farce and
mockery of justice. This Court should engage its
23

supervisory power to end the sham, in support of its
own appellate jurisdiction.
B. Exceptional Circumstances
There is no precedent to which reference can
be cited concerning densely layered fraud
government-paid attorneys use to enforce the income
tax on those IRS labels “non-filers.
Never in the history of this Nation has a
Government agency been credibly proven to be
systematically using computer and document fraud
to justify seizures, levies, liens, forfeitures and
criminal prosecutions.
Never before have federal judges claimed IRS
computers are duly-authorized delegates of the
Secretary, capable of issuing unsigned, wrongly
dated Letters over the names of humans, that a
computer supposedly prepared and signed a
summary record of assessment on February 26, 2007,
and that IRS manuals are not evidence to resolve
fact controversies concerning IRS enforcement acts.
Never before have appellate judges allowed
clerks to deny appellate relief while refusing to
mention or adjudicate any issue raised on appeal.
And, never has the Supreme Court’s appellate
jurisdiction over such a dense, layered governmentpaid attorney fraud been obstructed by acts of
judicial officers and clerks in the lower courts.

24

The rights of Americans to be free from
baseless, fraudulent forfeiture actions and thefts of
their property by public servants, based on wholly
falsified federal records, is being daily violated by
judicial officers supporting the underlying fraud.
These are truly “extraordinary circumstances”.
C. No other adequate means to attain the Relief
desired
Everyone is aware, including judges, attorneys
and laywomen, that no appellate relief is available
when unrepresented litigants allege existence of
government-paid attorney fraud, especially of the
type being concealed from Supreme Court review by
various fraudulent stratagems. The evidence from
EIGHT fully paid appeals (and now my own)
destroys any pretense that unrepresented litigants
have access to meaningful appellate relief in courts
of appeal.
That is, the Circuit Courts are fully involved
in support of the executive branch record falsification
program, just as are U.S. District judges. We have
already seen the Panel issue an unsigned,
unpublished “order” on Circuit letterhead denying
emergency relief without explanation, thus leaving
nothing to appeal to this Court.
Since Petitioner can thus PROVE that no
ACTUAL, adequate, effective and meaningful
judicial relief is available to unrepresented litigants
seeking relief in the “normal” appellate channel, this
25

petition should be heard in the United States
Supreme Court.
D. Petitioner’s right to mandamus relief is
clear and indisputable.
I have a RIGHT to have my appeal heard
before an impartial panel, which will fully,
transparently adjudicate every well-pled issue I raise.
I and all unrepresented litigants have a
RIGHT to standby counsel, paid at the highest rate
excellent lawyers command in private practice and
paid by the government, since I have provided nonconclusory, explicit allegations and evidence tending
to prove government-employed attorneys are
engaged in fraud against the Rule of Law, our courts
and me.
I also have a statutory RIGHT to access en
banc appellate relief, in the manner established by
law, and not to have my procedural due process right
subverted by panel attorneys seeking to obstruct
circuit examination of the endemic fraud perpetrated
by judicial officers in support of the underlying
executive branch record falsification program.
Thus, my RIGHT to the requested mandamus/
prohibition relief sought herein is clear and
indisputable.

26

RELIEF REQUESTED
I respectfully request the Court provide these
four HOLDINGS:
1. When Circuits issuing unsigned orders denying
emergency appellate relief to unrepresented litigants,
while addressing no issue raised and providing no
appealable explanation, they violate litigants’ First
and Fifth Amendment rights and obstruct the
appellate jurisdiction of the Supreme Court over the
subjects raised;
2. In regard to income tax causes, the issuance by
Circuit judges of unsigned bald, incomprehensible
denials of appellate relief violates the separation of
powers and independence of the judiciary;
3. When explicit allegations are presented by
unrepresented litigants that
government-paid
attorneys, whether behind the bench or before, are
committing acts of misconduct, such allegations
mandate appointment of (effective) “standby” counsel
for the victims, fully paid by the government; and
4. So called General Rules such as 9th Circuit Gen.
Rule 6.11 are void, in so far as the purport to
authorize panel judges to block access of appellants
to the en banc circuit when appeal is sought of panel
members’ acts or failures to act.
In accordance with the HOLDINGS requested,
I move the Court issue four ORDERS, that

27

1. All Circuits, in all cases involving unrepresented
litigants, cease issuing bald, incomprehensible orders
denying appellate relief;
2. All Circuits, in all cases involving unrepresented
litigants, address every intelligible issue raised on
appeal, by applying relevant law to the specific facts
of that case;
3. In any civil case wherein non-conclusory explicit
allegations are raised that government-paid
attorneys have engaged in fraud, misrepresentation
or other misconduct, courts will appoint “standby
counsel” for unrepresented litigants, wholly paid by
government at the standard rate of top private
attorneys; and ORDER
4. Circuit judges cease obstructing, impeding or
otherwise preventing en banc appellate relief sought
concerning their actions, whether citing General
Rules or otherwise.
Respectfully submitted,

S’

n

Melba Ford
905 Ross Way
Hanford, California 93230
559-772-9366
In Propria Persona

28

